  Audit of Certain USAID/El Salvador
Financial Operations and Management
               Controls



        Audit Report No. 1-519-01-001-F
               January 23, 2001




        San Salvador, El Salvador
                 U.S. A GENCY FOR
                 INTERNATIONAL
                  DEVELOPMENT

                  RIG/San Salvador


                 January 23, 2001

                 MEMORANDUM
                 FOR:                USAID/El Salvador Director, Kenneth C. Ellis

                 FROM:               Regional Inspector General/San Salvador, Timothy E. Cox

                 SUBJECT:            Audit of Certain USAID/El Salvador Financial Operations and
                                     Management Controls (Report No. 1-519-01-001-F)

                 This memorandum is our report on the subject audit.

                 This report contains two recommendations for your action. Final actions have
                 been taken on the two recommendations and, therefore, the recommendations are
                 closed upon issuance of this report.

                 I appreciate the cooperation and courtesy extended to my staff during the audit.


Background       This report focuses on USAID/El Salvador’s internal controls for advances,
                 accruals, 1221 reconciliations, loans monitoring, and on the Mission’s procedures
                 to implement the Phoenix (previously called Momentum) accounting system in
                 regards to old unliquidated obligations, old unreconciled items, and accounts
                 receivable. According to USAID/El Salvador’s records, as of March 31, 2000, the
                 Mission accounted for 127 outstanding advances totaling about $7.4 million (not
                 including advances in local currency) and 323 accruals totaling nearly $22 million
                 (not including 13 accruals in local currency from trust funds). Its 1221
                 reconciliation of March 2000 for the three USAID missions in El Salvador,
                 Mexico, and Panama had 532 unreconciled items totaling over $4.3 million, which
                 were accounted for in the U-101 report as of April 30, 2000. The Government of
                 El Salvador confirmed having three USAID loans which had outstanding balances
                 totaling over $12.3 million, as of June 30, 2000.

                 USAID/El Salvador’s Office of the Controller, which is the focal point for financial
                 operations, has 24 positions including a Controller, Financial Management Officer,
                 Certifying Officer, Chief Accountant, Supervisory Financial Analyst, seven voucher


         Page 1 of 16                                                      Audit Report No. 1-519-01-001-F
                   examiners, three accounting technicians, four financial analysts, two secretaries, and
                   three other professionals. This office also performs the controller functions for
                   USAID/Mexico and USAID/Panama.



Audit Objective    As part of the internal control phase of the worldwide audit of USAID’s fiscal year
                   2000 financial statements, the Office of the Regional Inspector General/San Salvador
                   performed an audit to answer the following audit objectives:

                   •      Did USAID/El Salvador establish and implement adequate internal controls to
                          account for and report advances, accrued expenditures, 1221 reconciliation, and
                          monitoring U.S. and local currency loans?

                   •      Did USAID/El Salvador develop adequate procedures for the implementation of
                          the Phoenix accounting system to timely clear old unliquidated obligations, to
                          timely clear old unreconciled items, and to adequately manage accounts
                          receivable?

                   Appendix I describes the audit scope and methodology.



Audit Findings     Did USAID/El Salvador establish and implement adequate internal
                   controls to account for and report advances, accrued expenditures,
                   1221 reconciliation, and monitoring U.S. and local currency loans?

                   USAID/El Salvador established and implemented adequate internal controls to
                   account for and report advances, accrued expenditures, and 1221 reconciliation,
                   except for controls on aged outstanding advances and unreconciled 1221 items. The
                   Mission is in the process of developing a financial monitoring plan for loans in
                   accordance with ADS Chapter 623, issued July 6, 2000.

                   The Mission’s advance process contained controls on the analysis of requested
                   advances and on the accounting and reporting of advances; but, our sample of 30
                   outstanding advances, as of March 31, 2000, indicated a lack of control on aged
                   outstanding advances. For advances to large organizations, a key control is the use of
                   the Cash Advance Analysis and Approval form, on which the voucher examiner
                   analyzes the amount of the advance requested, balance of outstanding advances,
                   estimates of three months of expenditures, prior three months of incurred
                   expenditures, and cash on hand. On the same form, the project officer approves the
                   advance request. Another control is the Mission’s written policies and procedures,
                   contained in Mission Operations Manual, sub-chapter 940, “Cash Management and
                   Program Funded Advances.” For advances to community organizations, a key
                   control is the project officer’s authorization. Another control is Mission Operations
                   Manual, sub-chapter 805, “Small Infrastructure Activity.” For advances to



           Page 2 of 16                                                      Audit Report No. 1-519-01-001-F
        individuals, a key control is the travel authorization. Another control is Mission
        Operations Manual, sub-chapter 5030, “Travel Authorizations and Arrangements.”

        The Mission’s accrual process contained adequate controls based on our sample of 30
        accruals made as of March 31, 2000. A key control for accruals is the accrual
        worksheet, which is a list of unliquidated commitments by project and earmark
        control number, generated from the Mission Accounting and Control System
        (MACS). The project officer completes and initials the worksheet, the financial
        analyst examines it, and the accountant compares it to disbursements made. Another
        control for accruals is the Mission’s written policies and procedures, contained in
        Mission Operations Manual, sub-chapter 970, “Development of Accruals.”

        The Mission performed monthly reconciliations of the 1221 report from the U.S.
        Disbursing Offices with the Mission’s MACS accounting records. But the 1221
        reconciliation, as of March 31, 2000, had a large number of unreconciled items that
        were over three months old, which indicated differences that should be researched
        and resolved within 60 business days. A Mission official estimated about 70 percent
        of these unreconciled items were due to non-submission of vouchers on various
        USAID/Mexico costs that were paid through the U.S. Embassy in Mexico.

        According to Mission officials, the Government of El Salvador (GOES) makes loan
        payments directly to USAID/Washington’s loan servicing agent. They explained that
        the loans were made more than 15 years ago, and the Mission monitors loan
        repayments for possible loan violations based on information provided by
        USAID/Washington. The Mission maintains a schedule of loan payments, based on
        GOES-provided data.

        The need for a control on aged outstanding advances and a control on unreconciled
        items are discussed below.

        Review of Aged Outstanding Advances

        Financial Management Bulletin, Part 2 No. 7, section VIII.A.4 states that
        outstanding advances should be monitored on a regular, continuing basis, such as
        the use of the Advance Aging Report to identify advances with expired
        accountability dates.

        USAID/El Salvador does not currently perform monthly reviews of an Advance
        Aging Report, but did up to mid-1996 and once during 1998, according to Mission
        officials. This report on outstanding advances lists each advancee and the
        outstanding advance balance, grouped by balances under 30 days, 31-60 days, 61-
        120 days, 121-180 days, 181-360 days, and over 360 days.

        The reason for less frequent reviews was attributed to a smaller portfolio of
        projects and fewer staff. Also, orders of the Controller’s Office did not provide
        any procedures on monitoring outstanding advances through reviews.



Page 3 of 16                                                   Audit Report No. 1-519-01-001-F
        USAID/El Salvador provided the Advance Aging Report for July 6, 2000. It
        showed that outstanding advances totaled about $8 million for 75 advances held by
        organizations and individuals under the three Missions in El Salvador, Mexico, and
        Panama.

        We matched our random sample of 30 advances from a list of 127 outstanding
        advances, as of March 31, 2000 to the Advance Aging Report. From this sample,
        we found six advances that the Mission may have been able to clear earlier if it had
        periodically reviewed the Advance Aging Report. The six advances were as
        follows:

        •      Conservation International had an outstanding advance of $310,000 since early
               1998 with USAID/Mexico. Although documents indicated that the advance
               had been properly used, a USAID/El Salvador official said that an accounting
               entry to eliminate the advance was not made because the Mission had not
               received adequate supporting documentation.

        •      SEMILLAS (Mexico) had excessive monthly advances beginning with the
               February 2000 advance, which covered monthly expenditures from February –
               April 2000 and most of May 2000, according to the voucher examiner’s
               analysis. The excessive amount of the February 2000 advance was $6,403
               (over half of the $11,398 advance) and by June 2000 the outstanding advance
               balance was $15,848. The Mission sent an inquiry in late June 2000, but
               should have acted sooner, when the February advance was liquidated for April
               expenses.

        •      Asociación Demográfica Salvadoreña had advances totaling $42,389
               outstanding over 360 days, as of July 6, 2000. However, after we inquired, the
               Mission found that in October 1999 this organization had issued a check for
               interest earned and refund of advances. A Mission official said that $65,350
               had been mistakenly deposited into the U.S. Treasury as interest earned instead
               of as a refund of advances.

        •      A local community organization in El Salvador had an advance balance of
               $2,044 outstanding since 1996, as part of an infrastructure program to sponsor
               projects costing no more than $40,000 each for various communities. Mission
               officials said that the recipient was not cooperative in providing supporting
               documentation and, therefore, the Mission would write off the outstanding
               advance.

        •      Two travel advances of USAID/Panama and USAID/El Salvador with
               outstanding balances of $72 and $26 had been outstanding since November
               1997 and June 1999.




Page 4 of 16                                                      Audit Report No. 1-519-01-001-F
        The use of a control on aged outstanding advances should be utilized to ensure
        timely actions when and where needed. Accordingly, we believe that the Mission
        should implement a better control over aged outstanding advances.

               Recommendation No. 1: We recommend that USAID/El Salvador
               implement procedures to periodically review aged outstanding
               advances.

        Unreconciled 1221 Items from USAID/Panama and USAID/Mexico

        Financial Management Bulletin, Part 2 No. 14b, on 1221 reconciliation states that
        the outstanding reconciling items over two months old need to be researched and
        corrected. It also states that when the mission does not receive vouchers processed
        by the U.S. Embassy, the mission should make formal arrangements to obtain
        copies of these vouchers.

        The Mission’s 1221 reconciliation for March 31, 2000 showed 532 unreconciled
        items totaling $4,322,218 that were over three months old, which were reported on
        the U-101 report for April 2000. Of the 532 unreconciled items, 132 items
        appeared in MACS and not in the 1221 report and 400 items appeared in the 1221
        report and not in MACS. A Mission official estimated that of those unreconciled
        items that were over three months old, about 20 percent involved USAID/Panama,
        about 70 percent involved USAID/Mexico, and the remainder were USAID/El
        Salvador. The table below shows these unreconciled items by appropriation.

                                          Number of Unreconciled
                  Appropriation No.      Items, Over Three Months          Absolute Value
                                             Old, as of 3/31/00
                 7201000                                         42             $ 1,098,781
                 729/01000                                        6                  23,507
                 72X1000                                        168               2,114,744
                 729/01007                                        7                   7,760
                 72X1007                                          8                  10,057
                 729/01021                                       59                  74,986
                 72X1021                                        171                 811,233
                 72X1037                                         13                  12,360
                 729/01096                                       11                  48,707
                 72X1035                                         10                  22,696
                 72X1095                                         30                  24,997
                 72X4343                                          1                   1,030
                 72X8342                                          6                  71,361
                    Totals:                                     532             $4,322,218

                      Note: Total for the absolute value excludes rounding error.

        Of the 532 unreconciled items, 260 items were identifiable as payroll items, but
        were not identifiable for which of the three missions. Of the 132 items in MACS,
        86 items were identifiable as payroll items. A Mission official explained that that
        the unreconciled payroll items were due to the delay between the U.S. Disbursing


Page 5 of 16                                                          Audit Report No. 1-519-01-001-F
        Office (USDO), Charleston, South Carolina payroll payments and the accounting
        data prepared by each of the three missions based on USDO payroll reports for
        posting into MACS.

        With respect to the remaining unreconciled USAID/Panama items, disbursements
        appeared in the MACS, but not in the 1221 report. USAID/El Salvador,
        USAID/Panama, and the U.S. Embassy in Panama, which processed the
        unreconciled USAID/Panama vouchers, were working on the problem and in
        August 2000 identified a possible cause of the problem. Specifically, the payment
        requests sent to USDO contained a code indicating a charge for
        USAID/Washington instead of USAID/Panama. Subsequent 1221 reconciliations
        will show whether this code was the cause for these unreconciled items.
        Accordingly, we are making no recommendation on controls over USAID/Panama
        vouchers.

        With respect to the remaining unreconciled USAID/Mexico items, USAID/El
        Salvador officials explained that payments of local utilities and petty purchases
        were processed through the U.S. Embassy in Mexico to the USDO/Charleston.
        For example, a USAID/El Salvador official said that the U.S. Embassy paid the
        utility bills and charged USAID/Mexico for its share, but USAID/El Salvador did
        not regularly receive copies of the vouchers. Such payments appeared in the
        USDO’s 1221 report, but not in the MACS. According to USAID/El Salvador
        official, the unreconciled USAID/Mexico items were due to the non-submission of
        USAID/Mexico vouchers.

        The Mission did not have written procedures for those USAID/Mexico vouchers
        processed by the U.S. Embassy in Mexico for payment by the USDO/Charleston.

        Accordingly, we believe that the Mission should strengthen the controls on the
        USAID/Mexico vouchers processed through the U.S. Embassy in Mexico, by
        establishing written procedures in consultation with USAID/Mexico and the U.S.
        Embassy in Mexico.

               Recommendation No. 2: We recommend that USAID/El Salvador
               strengthen voucher controls by establishing, in consultation with
               USAID/Mexico and the U.S. Embassy in Mexico, written
               procedures on the USAID/Mexico vouchers processed through the
               U.S. Embassy.

        Did USAID/El Salvador develop adequate procedures for the
        implementation of the Phoenix accounting system to timely clear old
        unliquidated obligations, to timely clear old unreconciled items, and
        to adequately manage accounts receivable?

        USAID/El Salvador has adequate procedures to clear unliquidated obligations, to
        clear unreconciled items, and to manage accounts receivable.



Page 6 of 16                                                 Audit Report No. 1-519-01-001-F
                     With respect to old unliquidated obligations, a Mission official said that the
                     Mission accountants assigned to specific projects cleared unliquidated obligations
                     as part of their responsibilities. The Mission received Washington guidance dated
                     July 7, 2000 on data preparation for the Phoenix system, which provided
                     instructions on the clearance of unliquidated obligations of closed and terminated
                     projects by September 30, 2000. Based on a Mission pipeline report as of July 31,
                     2000, we counted unliquidated obligations totaling almost $2.4 million for 13
                     projects with a project completion date of 1998 or earlier. A Mission official
                     reported that the work on unliquidated obligations would be completed by August
                     31, 2000.

                     With respect to unreconciled items, Mission officials said there were no
                     unreconciled MACS data file items and unreconciled 1221 items 1 should have no
                     effect on migration of MACS data to the Phoenix system. On MACS data file
                     reconciliation, a Mission official said that this reconciliation was run monthly to
                     ensure that accounts balanced and unreconciled items were corrected prior to
                     running monthly reports.         Since the Mission runs the MACS data file
                     reconciliation every month, according to a Mission official, it has implemented
                     Washington guidance dated July 7, 2000 on this topic. On unreconciled 1221
                     items, a Mission official pointed out that whether or not transactions in the MACS
                     were reconciled or unreconciled has no effect on migration of MACS data to the
                     Phoenix system. Also, 75 percent of the 532 unreconciled items from the 1221
                     reconciliation, as of March 31, 2000, was unreconciled because the items were not in
                     the MACS and, thus, would have no effect on the Phoenix system.

                     With respect to accounts receivable for payments due, such as for personal
                     telephone calls and personal use of Mission vehicles, a Mission official said that
                     there were no accounting entries for them until payments were made, because the
                     amounts were very small. In regards to refunds due for unused travel advances,
                     the Mission eliminated cash travel advances for Mission employees through
                     issuance of Administrative Notice No. 00-147 dated July 19, 2000. Instead of cash
                     travel advances, Mission employees will use a local bank’s credit card for all
                     official travel. Thus, the Mission has no such accounts receivable for transfer to
                     the Phoenix system.



Management     USAID/El Salvador agreed with the report’s findings and the recommendations.
Comments and In response to Recommendation No. 1, USAID/El Salvador issued a new Financial
Our Evaluation Management Order on September 29, 2000, which established procedures to
                     control advances using the Advance Aging Report.      In response to
                     Recommendation No. 2, USAID/El Salvador met with officials of the U.S.

                     1
                       Two different reconciliations were mentioned. The MACS data file reconciliation addresses
                     balances between files and transaction types within MACS. A 1221 reconciliation addresses
                     whether transactions in MACS and the 1221 reports from the U.S. Disbursing Offices are the same.


             Page 7 of 16                                                            Audit Report No. 1-519-01-001-F
        Embassy in Mexico and USAID/Mexico and the latter two signed an agreement
        dated September 21, 2000 to provide financial data at least monthly to USAID/El
        Salvador.

        Based on the information above, final actions have been taken on
        Recommendation Nos. 1 and 2 and, therefore, these recommendations are closed
        upon issuance of the report.




Page 8 of 16                                                Audit Report No. 1-519-01-001-F
                                                                                               Appendix I


                 Scope
Scope and
Methodology      The Office of Regional Inspector General/San Salvador conducted an audit of USAID/El
                 Salvador’s financial operations and management controls, as part of the internal control
                 phase of a worldwide audit of USAID’s fiscal year 2000 financial statements. The audit
                 was performed in accordance with generally accepted government auditing standards.
                 The fieldwork at USAID/El Salvador’s offices occurred from June 12, 2000 through
                 August 16, 2000.

                 As part of the audit, we obtained an understanding of the controls over the advance
                 process, accrued expenditures process, reconciliation process, and loans process. We
                 determined whether the controls were placed in operation, and we assessed control risk.
                 We also gathered information on the Mission’s progress on the Phoenix (previously
                 called Momentum) accounting system and its efforts on old unliquidated obligations, old
                 unreconciled items, and accounts receivable. We did not assess compliance with any
                 laws and regulations applicable to the audit objectives. We did not test the data from the
                 Mission accounting systems, MACS and MACSTRAX.

                 The audit examined controls for USAID/El Salvador’s fiscal year 2000 financial
                 operations related to cash advances, accrued expenditures, 1221 reconciliation, and loans
                 in order to provide reasonable assurance on the reliability of financial reporting in
                 accordance with generally accepted accounting principles. The audit considered the
                 number of unliquidated obligations, unreconciled items, and accounts receivable. It did
                 not cover any other USAID/El Salvador financial operations.

                 We limited our internal control testing to those controls necessary to achieve the
                 objectives described in OMB Bulletin No. 01-02. We did not test all internal controls
                 relevant to operating objectives as broadly defined by the Federal Managers’ Financial
                 Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.
                 The objective of our audit was not to provide assurance on internal control.
                 Consequently, we do not provide an opinion on internal control.

                 Methodology

                 The audit objectives were to determine if USAID/El Salvador established and
                 implemented adequate internal controls to account for and report on advances, accrued
                 expenditures, 1221 reconciliation, and loans monitoring and if USAID/El Salvador
                 developed adequate procedures for the implementation of the Phoenix (previously
                 called Momentum) accounting system to timely clear old unliquidated obligations, to
                 timely clear old unreconciled items, and to adequately manage accounts receivable.

                 In examining advances, the totals for the population of all outstanding advances as of
                 March 31, 2000 and our random sample of 30 advances are listed in the following
                 table. The population included three Missions, because USAID/El Salvador was the
                 accounting station for itself, USAID/Mexico, and USAID/Panama. In the sample,



         Page 9 of 16                                                     Audit Report No. 1-519-01-001-F
                                                                                           Appendix I

        there were three main groups: large organizations that implemented Mission-funded
        projects; community organizations that received nine-month, up to $40,000 grants for
        infrastructure projects; and individuals such as Mission employees and Mission-
        sponsored local representatives. Several organizations had more than one outstanding
        advance in the population and the sample. Eleven of the 30 advances had outstanding
        balances of less than $1,500.



                 Population of Outstanding Advances,            Number           Amount
                   As of March 31, 2000                                       (thousands)
                 Large organizations                                    52         $6,790
                 Community organizations                                42            631
                 Individuals                                            33              25
                 Total                                                 127         $7,446

                 Sample of Outstanding Advances,                Number           Amount
                   As of March 31, 2000                                       (thousands)
                 Large organizations                                     13          $ 765
                 Community organizations                                  7             82
                 Individuals                                             10              5
                 Total                                                   30          $ 852

                      Note: Advances in local currency were not included in the above table.

        For the sample items, we reviewed Mission documents for key controls and discussed
        with Mission officials the deposit of advances into separate interest-bearing accounts,
        report of interest earnings, refunds of excess cash, and Mission policy. For advances
        to the large organizations, we reviewed the Mission policy on program-funded
        advances and the voucher and supporting documentation for controls, such as payment
        history file, cash-on-hand report, and project officer’s verification. For advances to
        community organizations, we reviewed the Mission policy on small infrastructure
        activity and Mission documents for project officer’s authorization. For advances to
        individuals, who were Mission employees and Mission-sponsored local
        representatives, we reviewed the Mission policy on travel and Mission documents for
        travel authorization.

        Our work on how the advance vouchers were processed was limited to available
        documents and discussions with Mission officials, as follows. We did not request the
        Mission to print out the MACS payment history file for a recipient organization. The
        reason was that because, according to Mission officials, the MACS payment history file
        would be accessed by the voucher examiner on a monitor and would be reviewed in order
        to complete a Cash Advance Analysis and Approval form.

        We limited our analysis of aged advances to the sample taken from the list of
        outstanding advances. The Mission could not provide an Advance Aging Report for
        March 31, 2000 or for any date prior to the date of request. Therefore, we used the




Page 10 of 16                                                        Audit Report No. 1-519-01-001-F
                                                                                            Appendix I

        available aging report, as of July 6, 2000. The following table shows this report’s
        population of outstanding advances.

                 Population of Aged Outstanding                  Number           Amount
                 Advances, As of July 6, 2000                                  (thousands)
                 Large organizations                                      20        $7,419
                 Community organizations                                  20           606
                 Individuals                                              35             28
                 Total                                                    75        $8,053


        In examining accrued expenditures made quarterly by the Mission and reversed during
        the first week of the following month, we reviewed two applicable documents. They
        were (1) a document provided by the Bureau for Management, Office of Financial
        Management containing data on outstanding advances to be used as part of the accrual
        estimations, as of March 31, 2000, and (2) Mission guidance (Financial Management
        Order 400-31, March 16, 1995). We reviewed a random sample of 30 accrual
        transactions. We reviewed the sample for calculations made by the technical office,
        verification by the project accountant, and second party review before authorization to
        post the accruals. The table shows totals for the population for accrued expenditures
        taken from the Mission’s P09 report (a listing of unliquidated commitments by project
        and earmark control number) for the quarter ending March 31, 2000 and our random
        sample.

                     Accrued Expenditures,             Number           Amount
                      As of March 31, 2000                           (thousands)
                     Population (1)                          323          $21,983
                     Sample (2)                               27               900

                       Notes: (1) Population does not include 13 accruals in local currency.
                             (2) We also reviewed three accruals in local currency, not included
                                  in the table.

        In examining the 1221 reconciliation, we reviewed Line G.2 information reported on the
        U-101 report for April 30, 2000, and the related 1221 reconciliation documents for March
        2000. This reconciliation compared the disbursements and collections recorded in the
        MACS with the disbursements and collections listed in the U.S. Disbursing Offices’ 1221
        reports. We traced the balances for the 1221 reconciliation of March 2000 for
        appropriation number 7201000 to balances for Line G.2 of the U-101 report for April
        2000. We reviewed unreconciled items that were over three months old. We totaled
        their number and absolute value (that is, sum of all values regardless whether positive or
        negative). They numbered 532 unreconciled items, totaling $4,322,218, of which 132
        items appeared in the MACS and 400 appeared in the 1221 reports. We did not test the
        transfer of data from the MACS’ 1221 reconciliation report to a spreadsheet. We did not
        visit USAID/Mexico or USAID/Panama to verify USAID/El Salvador’s actions on
        unreconciled items and to determine the causes of the unreconciled items.

        In examining the loans process, especially monitoring U.S. and local currency loans,
        we were limited by available information. We requested the Mission to ask the


Page 11 of 16                                                         Audit Report No. 1-519-01-001-F
                                                                                   Appendix I

        Government of El Salvador (GOES) to confirm the list of host government loans
        provided by the Office of Inspector General’s Office of Financial Audits (IG/A/FA).
        We received the GOES confirmation through the Mission, although the Mission letter
        requested delivery of the confirmation to us. We reviewed Mission files on the loans,
        but Mission files lacked background information on the loans such as the loan
        agreements, a complete schedule of loan payments, and specific instructions from
        USAID/Washington. Therefore, we could not ascertain the accuracy of the loan
        confirmations.

        In performing the audit tests described above, we considered non-compliance
        exceeding five percent of the cases reviewed to represent material non-compliance.

        For the second audit objective, we discussed the status of the Phoenix accounting
        system at the Mission, old unliquidated obligations, old unreconciled items, and
        accounts receivable. We requested Mission files on audit reports for the prior three
        years related to the Mission’s financial operations and reviewed related audit
        recommendations. We considered whether the Mission needed to take additional
        measures to clear old unliquidated obligations, to clear old unreconciled items from
        the MACS reconciliation and the 1221 reconciliation, and to manage accounts
        receivable, especially for the first two items since USAID/Washington had just issued
        detailed guidance on July 7, 2000. We tabulated pipeline totals for projects with
        project assistance completion dates of 1998 and earlier, but we did not assess whether
        the pipeline amounts needed to be deobligated. We requested Mission files on
        Mission activities on the Phoenix accounting system, liquidations of obligations,
        MACS reconciliation and other reconciliations, and accounting of accounts receivable
        transactions.




Page 12 of 16                                                 Audit Report No. 1-519-01-001-F
                                                                                       Appendix I


MANAGEMENT
COMMENTS

                        AGENCY FOR INTERNATIONAL DEVELOPMENT
                       UNITED STATES A.I.D. MISSION TO EL SALVADOR




       Date:           16 October 2000

       To:             Timothy E. Cox, Regional Inspector General

       From:           Frank L. Breen, Controller

       Subject:        Audit of Certain USAID El Salvador Financial
                       Operations and Management Controls



       USAID/EI Salvador concurs in the findings of this audit and has taken steps to implement
       the two recommendations contained in the audit report. Based upon the actions noted
       below the Mission requests that the two recommendations be closed upon issuance of the
       report.

       In accordance with Recommendation No.1, the Controller's Office has implemented
       procedures to use the standard MACS A 16 Report on a monthly basis to review all
       outstanding advances and to take action to recover overdue, unliquidated advances. A copy
       of the Financial Management Order establishing the procedures is attached.

       In accordance with Recommendation No.2, written procedures have been established to
       ensure that USAID receives appropriate accounting data for USAID/Mexico vouchers
       processed by the US Embassy, Mexico. A copy of the Memorandum of Understanding
       between the Embassy and USAID/Mexico specifying the procedures is attached


       Cc:     K.Ellis
               R.Goughnour




       Page 13 of 16                                                  Audit Report No. 1-519-01-001-F
                                                                             Appendix I

                                              FINANCIAL MANAGEMENT ORDER

                                 USAID/EL SALVADOR CONTROLLER’S OFFICE



                                                                            FMO 300-
                                                                     September 29, 2000


SUBJECT:             CASH ADVANCES- Aging Report

SUPERSEDES:          New Issuance

REFERENCES:          (A)    USAID Control1er's Guidebook, Chapter 5
                     (B)    Payment Verification Policy Implementation Guidance,
                            dated January 1, 1984.
                     (C)    USAID Handbook 1 B, Chapter 15.



I.      PURPOSE

The purpose of this Financial Management Order is to describe the procedures established
to control advances issued to grantees, contractors and employees using the standard
MACS Advance Aging Analysis Report (A16 Report).


II.     AUTHORITY

The Controller's authority to promulgate orderly procedures to review and approve cash
advance requests is contained in the USAID Controllers Guidebook. Chapter 5 of the
Guidebook specifically details the Controller's responsibilities relating to voucher
processing (see Ref. A). The Payment Verification Policy Statement assigns responsibility
for providing annual assessments of mission voucher approval and examination procedures
to Mission Controllers (see Ref. B).




Page 14 of 16                                               Audit Report No. 1-519-01-001-F
                                                                               Appendix II

III.   POLICIES
       US Treasury regulations require that funds be advanced to non-profit organizations
       only to meet its cash needs for the next 30 days (see Ref. C). The organizations
       should submit their advance request ten days after the end of the month, or about 50
       days before the beginning of the month for which the advance is requested. USAID
       intent is to provide an advance check to a recipient between the 20th and 30th day
       of a month to cover the organization's cash needs for the succeeding month (i.e.,
       approximately five days before the beginning of the month). The organization
       should present their liquidation voucher within 30 days after the end of the month
       or period for which the advance was given.



IV.    PROCEDURES

       The Supervisor Accountant Technician is responsible for overall coordination of the
       review process, preparation of the Advance Aging Analysis Report (A 16) on a
       monthly basis and distribution of the report to Financial Analysts and the
       Authorized Certifying Officer (ACO). It is the responsibility of Financial Analysts
       to review the A 16 Report with Project Officers and to recommend action to the
       ACO to recover any unliquidated advance deemed overdue. The ACO is
       responsible for ensuring that the recommendations made by the Financial Analysts
       are acted and to notify Financial Analysts and Project Officers of actions taken.
       Financial Analysts are responsible to ensure that Project Officers communicate
       information on actions taken to recover overdue, unliquidated advances to the
       grantees.




                        Approved



                        Date



       Prepared by:   RBrito, CONT                  Date
       Cleared by:    RZelaya, CONT                 Date




Page 15 of 16                                                  Audit Report No. 1-519-01-001-F
                                                                             Appendix II

                           Memorandum of Understanding
                 Between the U.S. Embassy in Mexico and Agency for
                    International Development Mission to Mexico

Background:

The U.S. Embassy in Mexico processes vouchers for certain disbursement on behalf of
USAID/Mexico. These disbursements include payments for utilities, social security,
AFORES, life insurance premium for FSNs and petty cash items. By processing the
vouchers, the U.S. Embassy orders the U.S. Disbursing Office in Charleston to process the
corresponding payments and to charge the appropriate USAID accounts. Once the
disbursements are made, Charleston advises USAID/EI Salvador of payments charged to
the USAID/Mexico accounts. These and other payments ordered directly by
USAID/Mexico are then reconciled to the USAID/Mexico accounting records to ensure
proper charges have been made to proper accounts. The Embassy also processes receipts
of IVA reimbursements and collections as a credit to the USAID/Mexico accounts.
USAID/EI Salvador serves as the accounting station for USAID/Mexico thus responsible
for keeping the accounting records and any related reconciliations.

In a recent audit performed by the USAID's Office of Inspector General, it was noted that
USAID/EI Salvador did not regularly receive copies of the vouchers processed by the U.S.
Embassy in Mexico. Accordingly, the Regional Inspector General recommended that:
"USAID/EI Salvador strengthen voucher controls by establishing, in consultation with
USAID/Mexico and the U.S. Embassy in Mexico, written procedures on the
USAID/Mexico vouchers processed through the U.S. Embassy."

Understanding:

Staff members from the U.S. Embassy, USAID/Mexico and USAID/EI Salvador met on
20 September, 2000 to discuss how the U.S. Embassy's Financial Management Center
could provide the necessary financial information to USAID. It was agreed that the U.S.
Embassy in Mexico would provide USAID/Mexico with the required financial data to
record expenditures and credits made against USAID appropriations on a not less than
monthly basis via electronic transfer of data. This information will then be transferred
from USAID/Mexico to USAID/EI Salvador for proper recording of the charges and
credits against the appropriate accounts and to facilitate reconciliations with
disbursements and credits reported by Charleston.

As necessary staff of the FMC and USAID will work together to resolve any discrepancies
in data and to improve and simplify procedures as appropriate.

For the U.S. Embassy                               For USAID/Mexico

Ed Luna, Financial Management Officer              Paul White, Director

Date: 9/21/00                                      Date: 9/21/00


Page 16 of 16                                                Audit Report No. 1-519-01-001-F
